         Office of Inspector General




August 15, 2005

KEITH STRANGE
VICE PRESIDENT, SUPPLY MANAGEMENT

WALTER O’TORMEY
VICE PRESIDENT, ENGINEERING

SUBJECT:      Audit Report – Postal Automated Redirection System’s Contract
              Incentives (Report Number CA-AR-05-003)

This report presents the results of our self-initiated audit of the Postal Automated
Redirection System’s (PARS) contract incentives (Project Number 04XR009CA000).

Our overall objectives were to determine whether the Postal Service effectively
managed the PARS performance incentive pools and properly exercised equitable
adjustment contract provisions. We evaluated the incentive pool structure and payment
computations and attempted to determine whether the Postal Service sought
appropriate recoveries for contractor nonperformance.

Postal Service officials awarded a performance incentive contract to speed the
development, maturation, and fielding of independently developed vendor technology
with the potential for a high return on investment (ROI). Postal Service officials said
PARS has achieved about a 15 percent ROI. However, we found opportunities to
improve management of the PARS contract. Specifically, the PARS Phase 1 incentive
pool structure allowed the contractor to earn all available performance incentives,
although the system did not meet all key performance requirements. Also, while not
contractually obligated, Postal Service officials increased the contract value by
$1,525,100 to compensate the contractor for improved system performance which the
cost model projected would produce additional savings. Additionally, Postal Service
officials did not validate PARS performance in accordance with contract provisions.
Finally, we could not determine whether the equitable adjustment for the contractor’s
nonperformance was appropriate.

We made four recommendations to Postal Service management addressing these
issues. Management agreed with the recommendations and has initiatives planned
addressing the issues in this report. Management’s comments and our evaluations of
these comments are included in this report.
We appreciate the cooperation and courtesies provided by your staff during the
audit. If you have any questions or need additional information, please contact
Judy Leonhardt, Director, Supply Management, or me at (703) 248-2300.

/s/ John M. Seeba

John M. Seeba
 Deputy Assistant Inspector General
 for Financial Operations

Attachments

cc: William P. Galligan, Jr.
    Richard J. Strasser
    Steven R. Phelps
Postal Automated Redirection System’s                   CA-AR-05-003
 Contract Incentives


                                  TABLE OF CONTENTS

 Executive Summary                                       i

 Part I

 Introduction                                            1

     Background                                          1
     Objectives, Scope, and Methodology                  2
     Prior Audit Coverage                                3

 Part II

 Audit Results                                           4

     Opportunities to Improve PARS Incentive Contract    4

     Incentive Pool Structure                            4
     Recommendations                                     5
     Management’s Comments                               5
     Evaluation of Management’s Comments                 6

     Incentive Payment Computations                      7
     Recommendation                                      7
     Management’s Comments                               8
     Evaluation of Management’s Comments                 8

     Equitable Adjustments                               9
     Recommendation                                     10
     Management’s Comments                              10
     Evaluation of Management’s Comments                10

 Appendix A. Abbreviations                              11

 Appendix B. Management’s Comments                      12
Postal Automated Redirection System’s                                             CA-AR-05-003
 Contract Incentives


                                 EXECUTIVE SUMMARY
 Introduction                 This report presents the results of our self-initiated audit of
                              the Postal Automated Redirection System’s (PARS)
                              contract incentives. Postal Service officials awarded a
                              performance incentive contract to speed the development,
                              maturation, and fielding of independently developed vendor
                              technology with the potential for a high return on investment
                              (ROI). Postal Service officials said PARS has achieved
                              about a 15 percent ROI. We determined whether the Postal
                              Service effectively managed the PARS performance
                              incentive pools and properly exercised equitable adjustment
                              contract provisions. We evaluated the incentive pool
                              structure and payment computations and attempted to
                              determine whether the Postal Service sought appropriate
                              recoveries for contractor nonperformance.

 Results in Brief             The Postal Service can improve the PARS incentive
                              contract. Specifically, the PARS Phase 1 incentive pool
                              structure allowed the contractor to earn all available
                              performance incentives, although the system did not meet
                              all key performance requirements. Also, while not
                              contractually obligated, Postal Service officials increased
                              the contract value by $1,525,100 to compensate the
                              contractor for improved system performance which the cost
                              model projected would produce additional savings.
                              Additionally, Postal Service officials properly computed
                              earned performance incentives based on PARS First Article
                              Test results; however, they did not validate PARS
                              performance in accordance with contract provisions.
                              Finally, we could not determine whether the equitable
                              adjustment for the contractor’s nonperformance was
                              appropriate because Postal Service officials did not fully
                              document the basis for determining that the adjustment was
                              fair and reasonable.

 Summary of                   We made recommendations to management to improve the
 Recommendations              incentive pool structure, conduct required validation testing,
                              and fully document the basis for determining future
                              equitable adjustments.

 Summary of                   Management agreed with the recommendations.
 Management’s                 Management’s comments, in their entirety, are included in
 Comments                     Appendix B of this report.




                                               i
Postal Automated Redirection System’s                                        CA-AR-05-003
 Contract Incentives


 Overall Evaluation of        Management’s actions taken or planned are responsive to
 Management’s                 the recommendations and should correct the issues
 Comments                     identified in the findings.




                                             ii
Postal Automated Redirection System’s                                                                 CA-AR-05-003
 Contract Incentives


                                             INTRODUCTION
    Background                     The Postal Automated Redirection System (PARS) revises
                                   the method to process undeliverable-as-addressed letter
                                   mail by identifying and redirecting it at the point of origin as
                                   opposed to destination. PARS is expected to generate
                                   significant savings to the Postal Service through a reduction
                                   in sort passes and the processing time for handling
                                   redirected mail. Postal Service officials said PARS has
                                   achieved about a 15 percent return on investment (ROI).

                                   In April 2002, the Postal Service’s Board of Governors
                                   approved the PARS Phase 1 Decision Analysis Report
                                   (DAR) authorizing $307.6 million to deploy PARS at
                                   521 processing and distribution facilities, install Change of
                                   Address Forms Processing System (CFPS) scanners at
                                   86 Computerized Forwarding System units, and install
                                   related equipment at affected locations.

                                   During contract negotiations, the Postal Service and the
                                   contractor agreed to a cost model for calculating potential
                                   savings associated with implementing PARS nationwide.
                                   Early estimations indicated that, fully deployed, PARS would
                                   save the Postal Service about $428 million per year.
                                   Contract negotiations resulted in an overall program price of
                                   $610 million for both phases (not including another
                                   $80 million for nonrecurring engineering costs to be paid in
                                   Phase 1).2

                                   On June 11, 2002, the Postal Service awarded a
                                   sole-source, firm fixed-price performance incentive contract
                                   for approximately $241 million to implement PARS Phase 1.
                                   They awarded a performance incentive contract to speed
                                   the development, maturation, and fielding of independently
                                   developed vendor technology with the potential for a high
                                   ROI. Using performance data from the Dulles Processing
                                   and Distribution Center (Dulles)3 to forecast savings
                                   expected for Phase 1, Postal Service officials and
                                   the contractor agreed to a Phase 1 contract price of over

1
  The original contract called for 52 sites; however, 4 sites were rescheduled from Phase 1 to Phase 2 (Pasco,
Washington; Waldorf, Maryland; Bloomington, Indiana; and Terre Haute, Indiana) and 1 site (Salt Lake City, Utah)
from Phase 2 to Phase 1. As a result, only 49 sites were deployed in Phase 1.
2
  Fully deployed PARS were priced at 1.426 times greater than 1 year’s anticipated savings ($610 million divided by
$427,831,956).
3
  The demonstrated base performance for the PARS technology occurred at the Dulles Processing and Distribution
Center.




                                                          1
Postal Automated Redirection System’s                                                               CA-AR-05-003
 Contract Incentives


                                   $198.3 million.4 By improving technical performance
                                   beyond the performance data demonstrated at Dulles,
                                   the contractor could earn up to about $43 million in
                                   performance incentives for a total Phase 1 contract price of
                                   about $241.3 million.

                                   The contract also included a Phase 2 option to acquire
                                   229 additional PARS for about $439 million, with over
                                   $154 million allocated to a performance incentive pool.

                                   As of February 2005, the Postal Service had paid the
                                   contractor about $228 million, including over $30 million in
                                   incentive payments.

    Objectives, Scope,             Our objectives were to determine whether the Postal
    and Methodology                Service effectively managed the PARS performance
                                   incentive pools and properly exercised equitable adjustment
                                   contract provisions. We evaluated the incentive pool
                                   structure and payment computations, and we determined
                                   whether the Postal Service sought appropriate recoveries
                                   for the contractor’s nonperformance.

                                   Our review was limited to the Postal Service’s
                                   administration of the PARS Phase 1 performance incentive
                                   pool and the enforcement of equitable adjustment contract
                                   provisions.

                                   We reviewed the Postal Service’s Purchasing Manual and
                                   DAR and the PARS contract files. We also interviewed the
                                   PARS program manager, contracting officer, and other
                                   personnel in Postal Service Engineering and Supply
                                   Management. Finally, we obtained and analyzed program
                                   funding data, contractor invoices, and payment information.

                                   This audit was conducted from October 2004 through
                                   August 2005, in accordance with generally accepted
                                   government auditing standards and included such tests of
                                   internal controls as were considered necessary under the
                                   circumstances. We did not rely on any computer-generated
                                   data to support the opinions or conclusions in this report.
                                   We discussed our observations and conclusions with

4
 Phase 1 annual savings of $89,646,307 for Dulles demonstrated performance results times the 1.426 price multiplier
equals $127,835,634, plus $80 million (nonrecurring engineering costs) equals $207,835,634. Finally, after
subtracting $9.5 million paid for a bridge contract, the Postal Service and contractor arrived at a Phase 1 base
contract price of $198,335,634.




                                                         2
Postal Automated Redirection System’s                                          CA-AR-05-003
 Contract Incentives


                              appropriate management officials and included their
                              comments where appropriate.

 Prior Audit Coverage         The Postal Service Office of Inspector General (OIG)
                              conducted the following three audits of PARS:

                              Postal Automated Redirection System First Article Testing
                              (Report DA-AR-04-002, dated September 15, 2004). The
                              results of the PARS First Article Test (FAT) Phase 1
                              disclosed that the intercept rates on the mail processing
                              equipment were all above the technical requirements in the
                              statement of work (SOW), and the mail processing
                              equipment had met expectations. However, there were FAT
                              technical issues for mail processing equipment and CFPS,
                              including the unfavorable CFPS test results and subsequent
                              improvement efforts. In addition, ongoing problems with
                              contract payments, labor savings, documentation, and ZIP
                              Code updates needed to be addressed.

                              Postal Automated Redirection System, Phase 1 (Report
                              Number DA-AR-03-002, dated February 25, 2003). The
                              expected ROI of 36 percent presented in the PARS Phase 1
                              DAR was based on assumptions from a statistically
                              unsound study of undeliverable-as-addressed mail.
                              Therefore, the expected ROI may have been incorrect. The
                              OIG recommended Engineering recalculate the ROI using a
                              method that does not rely on the undeliverable-as-
                              addressed mail study and eliminate this study to estimate
                              the ROI for future programs; update the Board of Governors
                              on these results; and compile a test report for the PARS
                              FAT Phase 1 and all future tests conducted by Test
                              Evaluation and Quality personnel.

                              Postal Service management said they did not plan to use
                              the undeliverable-as-addressed mail study in any future
                              programs to estimate ROI.

                              Postal Automated Redirection System, Phase 1 (Report
                              Number DA-AR-02-006, dated May 9, 2002). The OIG
                              identified performance issues related to preproduction
                              concept testing. The OIG recommended approving officials
                              consider authorizing the requested $307.6 million contingent
                              on additional testing.




                                              3
Postal Automated Redirection System’s                                            CA-AR-05-003
 Contract Incentives


                                        AUDIT RESULTS
 Opportunities to             The Postal Service can improve management of the PARS
 Improve PARS                 incentive contract. Specifically, the PARS Phase 1
 Incentive Contract           incentive pool structure allowed the contractor to earn all
                              available performance incentives, although the system did
                              not meet all key performance requirements. In addition,
                              while not contractually obligated, Postal Service officials
                              increased the contract value by $1,525,100 to compensate
                              the contractor for improved system performance which the
                              cost model projected would produce additional savings.
                              Also, Postal Service officials did not validate PARS
                              performance in accordance with contract provisions.
                              Finally, Postal Service officials sought recovery for
                              contractor nonperformance; however, we could not
                              determine whether the equitable adjustment was
                              appropriate because they did not fully document the basis
                              for the amount received.

                              As a result, the current Phase 1 incentive pool structure
                              may not effectively motivate the contractor to meet and
                              exceed PARS key performance requirements specified in
                              the SOW. In addition, when management pays more
                              incentive than contractually obligated, they increase the
                              potential for future contractor disputes about incentive pool
                              amounts and the availability of funds. Also, by not
                              performing timely validation testing, management has no
                              assurance that deployed PARS are performing as
                              demonstrated at FAT and all payments made for the system
                              were correct. Finally, the Postal Service may not have
                              received a fair and reasonable equitable adjustment for
                              contractor nonperformance.

 Incentive Pool               The Postal Service could improve the PARS incentive pool
 Structure                    structure. Specifically, the Phase 1 incentive pool structure
                              allowed the contractor to earn all available performance
                              incentives, although the system did not meet all key
                              performance requirements. Additionally, Postal Service
                              officials increased the contract value to compensate the
                              contractor for improved performance, although no
                              contractual obligation existed. This occurred because
                              Postal Service officials agreed to pay performance
                              incentives based on savings projected by the cost model
                              attributable to overall improvements in the system’s
                              performance.




                                               4
Postal Automated Redirection System’s                                                       CA-AR-05-003
 Contract Incentives



                                      Although CFPS did not comply with the SOW error rate
                                      requirement, the cost model showed increased savings to
                                      the Postal Service. Postal Service officials paid all
                                      incentives indicated by the cost model, but withheld
                                      20 percent of the contract price for CFPS components. In
                                      addition, Postal Service officials are considering modifying
                                      the contract to establish an at-risk amount if PARS does not
                                      meet three critical technical performance elements in
                                      Phase 2.

                                      Postal Service officials also modified the contract and
                                      increased the Phase 1 performance incentive pool by
                                      $1,525,1005 to compensate the contractor for increases in
                                      system performance. Although no contractual obligation
                                      existed to pay more than the established incentive pool
                                      amount, Postal Service officials said increasing the incentive
                                      pool amount was in the Postal Service’s best interest.

                                      As a result, the Phase 1 incentive pool structure may not
                                      effectively motivate the contractor to meet and exceed key
                                      performance requirements for PARS as specified in the
                                      SOW. By paying more than the contractually obligated
                                      amount, management increases the potential of future
                                      disputes about incentive pool amounts and the availability of
                                      funds.

    Recommendation                    We recommend the vice president, Engineering, in
                                      coordination with the vice president, Supply Management,
                                      direct the program manager and contracting officer to:

                                      1. Modify the Phase 2 contract provisions to clearly define
                                         the extent of the Postal Service’s obligation in the event
                                         the incentives earned exceed established performance
                                         amounts in the incentive pool.

    Management’s                      Management agreed with the recommendation and will
    Comments                          include specific language in the Phase 2 contract
                                      modification to limit the Postal Service’s liability to the value
                                      of the incentive pool. Management plans to modify the
                                      contract in August 2005.



5
    Modification 9, dated March 1, 2005.




                                                        5
Postal Automated Redirection System’s                                              CA-AR-05-003
 Contract Incentives




 Recommendation                2. Revise the Phase 2 incentive pool structure to reduce
                                  performance incentive payments when Postal Automated
                                  Redirection System components do not meet all key
                                  performance requirements.

 Management’s                  Management expressed concern that the finding may lead to
 Comments                      an incorrect conclusion that the Postal Service did not obtain
                               the full incentive value from the contractor’s performance.
                               Management stated testing showed the contractor exceeded
                               PARS performance objectives, but did not meet the
                               agreed-to requirements for CFPS. Since the PARS system
                               generated the vast majority of Postal Service savings, the
                               contractor more than earned the value of the incentive pool.

                               Although management expressed concern with the finding,
                               they agreed with the recommendation and will establish an
                               at-risk amount or pool within the Phase 2 contract
                               modification to withhold value from the supplier if it does not
                               meet contract performance requirements. Management
                               plans to modify the contract in August 2005.

 Evaluation of                 Management’s comments are responsive to
 Management’s                  recommendations 1 and 2, and actions planned should
 Comments                      correct the issue identified in the findings.




                                                6
Postal Automated Redirection System’s                                                         CA-AR-05-003
 Contract Incentives




    Incentive Payment            Postal Service officials properly computed earned
    Computations                 performance incentives based on PARS FAT results.
                                 Specifically, they computed and paid $30,065,5966 in earned
                                 performance incentives on delivered and accepted systems.
                                 However, they did not perform validation testing of deployed
                                 PARS performance according to contract provisions due to
                                 technical considerations.

                                 According to paragraph F.5 of the PARS contract:

                                        If FAT performance exceeds Dulles demonstration
                                        standards, payment will be equal to the Dulles
                                        results plus 80 percent of the performance
                                        incentive payment ordinarily allowable based on
                                        the test results. After 20 systems are deployed,
                                        an additional test shall be completed that will
                                        serve as the validation test for PARS performance.
                                        Upon completion of this test, the Postal Service
                                        will pay 100 percent of the validation test
                                        documented and authorized payments to the
                                        contractor.

                                 Twenty PARS were deployed as of September 2004.
                                 However, as of April 2005, Postal Service officials had not
                                 performed validation testing even though all 49 Phase 1
                                 PARS had been deployed. Postal Service officials did not
                                 perform validation testing as scheduled because of longer
                                 than anticipated time requirements for image collection
                                 activities related to testing. Validation testing was originally
                                 scheduled for completion in May 2005; however, it was not
                                 completed at that time.

                                 By not performing timely validation testing, the Postal
                                 Service has no assurance that PARS was performing as
                                 demonstrated at FAT and that incentive payments were
                                 correct.

    Recommendation               We recommend the vice president, Engineering, in
                                 coordination with the vice president, Supply Management,
                                 direct the program manager and contracting officer to:


6
 Program manager approved payment on 80 percent of the earned performance incentive ($37,581,995 earned
incentive times 80 percent = $30,065,596).




                                                     7
Postal Automated Redirection System’s                                               CA-AR-05-003
 Contract Incentives


                               3. Conduct validation testing and adjust incentive payments,
                                  as necessary.

 Management’s                  Management agreed with the finding and recommendation
 Comments                      and planned to complete validation testing by the end of
                               July 2005. Subsequently, they informed us that validation
                               testing would be completed in August 2005. Management
                               will use the validation test results to establish the baseline for
                               PARS Phase 2 performance and incentive payments.

 Evaluation of                 Management’s comments are responsive to the
 Management’s                  recommendation, and actions taken or planned should
 Comments                      correct the issue identified in the finding.




                                                8
Postal Automated Redirection System’s                                                             CA-AR-05-003
 Contract Incentives




    Equitable                     We were unable to determine whether the equitable
    Adjustments                   adjustment for contractor nonperformance was appropriate.
                                  This occurred because Postal Service officials did not fully
                                  document the basis for determining the equitable adjustment
                                  was fair and reasonable.

                                  The PARS contract states “The Postal Service reserves the
                                  right to require an equitable adjustment of the contract price
                                  for any extension of the delivery schedule necessitated by
                                  additional first article approval tests.” The original contract
                                  period of performance was from June 11, 2002, to April 11,
                                  2004.

                                  The contractor did not to meet the delivery schedule
                                  because CFPS did not pass FAT. On June 8, 2004, Postal
                                  Service officials sent the contractor a letter requesting
                                  consideration for late delivery. The letter stated the impact
                                  on Postal Service operations was an estimated loss of
                                  savings in excess of $400,000 per day. Subsequently, on
                                  December 9, 2004, Postal Service officials negotiated a
                                  supplemental agreement, modifying the PARS contract to
                                  establish a new CFPS delivery schedule ending May 12,
                                  2005.

                                  This agreement entitled the Postal Service to a $5.5 million
                                  equitable adjustment, which included a credit of $2.5 million
                                  in the form of Engineering Change Requests7 and a waiver
                                  of $3 million8 in earned performance incentives. However,
                                  Postal Service officials did not fully document the basis for
                                  determining the equitable adjustment was fair and
                                  reasonable. We could not determine if it was fair and
                                  reasonable based on the estimated $400,000 daily loss of
                                  savings due to deployment delays.

                                  As a result, the Postal Service may not have received a fair
                                  and reasonable equitable adjustment for contractor
                                  nonperformance.




7
 Engineering Change Requests effect changes to previously agreed-upon contract specifications.
8
 As a result, contractor must achieve a measured performance improvement value of $45,985,089 in order to earn
the entire $42,985,089 performance incentive pool.




                                                        9
Postal Automated Redirection System’s                                             CA-AR-05-003
 Contract Incentives




 Recommendation                We recommend the vice president, Supply Management,
                               direct the contracting officer to:

                               4. Fully document the basis for determining whether future
                                  equitable adjustments received in the event of contractor
                                  nonperformance are fair and reasonable.

 Management’s                  Management disagreed with the finding and stated the
 Comments                      contracting officer used the Postal Service’s need for
                               additional requirements and the waiver of earned incentive
                               as a basis for negotiating the equitable adjustment. Also,
                               management noted the contracting officer used the
                               $400,000 daily loss of savings as a negotiating tool and it did
                               not represent a final expectation for consideration. Finally,
                               management indicated the negotiation memorandum fully
                               discussed the negotiation objective values and settlement
                               amounts.

                               Although management disagreed with the finding, they
                               agreed with the recommendation and will specifically
                               address the basis for establishing negotiation objectives and
                               future equitable adjustment settlements.

 Evaluation of                 Management’s comments are responsive to the
 Management’s                  recommendation, and actions taken or planned should
 Comments                      correct the issue identified in the finding.




                                               10
Postal Automated Redirection System’s                     CA-AR-05-003
 Contract Incentives


                              APPENDIX A. ABBREVIATIONS

CFPS           Change of Address Form Processing System
DAR            Decision Analysis Report
FAT            First Article Test
OIG            Office of Inspector General
PARS           Postal Automated Redirection System
ROI            Return on Investment
SOW            Statement of Work




                                         11
Postal Automated Redirection System’s              CA-AR-05-003
 Contract Incentives


               APPENDIX B. MANAGEMENT’S COMMENTS




                                        12
Postal Automated Redirection System’s        CA-AR-05-003
 Contract Incentives




                                        13
Postal Automated Redirection System’s        CA-AR-05-003
 Contract Incentives




                                        14
Postal Automated Redirection System’s        CA-AR-05-003
 Contract Incentives




                                        15
Postal Automated Redirection System’s        CA-AR-05-003
 Contract Incentives




                                        16
